Audit Report




OIG-12-069
RECOVERY ACT: Audit of Moraine Wind II LLC Payment
Under1603 Program


August 23, 2012




Office of
Inspector General
Department of the Treasury
 
Contents


Audit Report

  Results in Brief .......................................................................................... 1

  Background .............................................................................................. 2

  Objectives, Scope, and Methodology…………………………………………………… .. 4

  Audit Results ............................................................................................ 4


Appendices

  Appendix     1:     Moraine Wind II, LLC’s Response ............................................ 7
  Appendix     2:     Management’s Response ....................................................... 8
  Appendix     3:     Major Contributors to This Report............................................ 9
  Appendix     4:     Report Distribution ............................................................... 10


Abbreviations

  MW                       megawatt
  NREL                     National Renewable Energy Laboratory
  OFAS                     Office of the Fiscal Assistant Secretary
  OIG                      Office of Inspector General
  Treas. Reg.              Treasury Regulation




                      Audit of Moraine Wind II LLC Payment Under 1603 Program                            Page i
                      (OIG-12-069)
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                     Audit
OIG
The Department of the Treasury
                                                                                     Report
Office of Inspector General




                      August 23, 2012

                      Richard L. Gregg
                      Fiscal Assistant Secretary

                      As part of our ongoing oversight of the Department of the
                      Treasury’s (Treasury) 1603 Program – Payments for Specified
                      Energy Property in Lieu of Tax Credits (1603 Program)1 authorized
                      by the American Recovery and Reinvestment Act of 2009
                      (Recovery Act),2 we are conducting audits of selected award
                      recipients. In this regard, we have audited the award made to
                      Moraine Wind II, LLC (Moraine II) for a wind energy property in
                      Pipestone County, Minnesota. Moraine II submitted its claim for
                      payment in lieu of tax credit in the amount of $28,019,520 and
                      was awarded that amount by Treasury on September 1, 2009. Our
                      audit objectives were to assess the eligibility and accuracy of that
                      award by determining whether (1) the property existed, (2) the
                      property was placed into service during the eligible timeframe, and
                      (3) the award amount was appropriate.


Results in Brief
                      We verified that the subject property described by Moraine II in its
                      1603 Program application existed and was placed in service on
                      February 15, 2009, which was within the eligible timeframe. We
                      also concluded that the award amount was appropriate. Overall,
                      Moraine II complied with the eligibility requirements set forth in
                      Section 1603 of the Recovery Act and Treasury’s 1603 Program

1
 Treasury’s Office of the Fiscal Assistant Secretary administers this program.
2
 Pub. L. No. 111-5, 123 Stat. 364-366 (Feb. 17, 2009). Under section 1603 of the Recovery Act,
Treasury makes grants (payments) to eligible persons who place in service specified energy property
and apply for such payments. The payments reimburse eligible applicants for a portion of the expense of
such property and are made in lieu of tax credits that could potentially be claimed by the awardees.


                      Audit of Moraine Wind II LLC Payment Under 1603 Program                   Page 1
                      (OIG-12-069)
                       guidance.3 Subsequent to our visit to Iberdrola Renewables Inc.
                       (Iberdrola), the parent company of Moraine II, we reviewed Moraine
                       II’s annual performance reports submitted to Treasury for 2010 and
                       2011, certifying that the subject property was not disposed of and
                       that it continued to qualify as a specified energy property. It should
                       be noted that in accordance with the terms and conditions of the
                       award, Moraine II must continue to certify that (1) the property has
                       not been sold, transferred, or disposed of to a disqualified person
                       and (2) the property continues to qualify as a specified energy
                       property.

                       As part of our reporting process over 1603 Program awardees, we
                       provided Moraine II an opportunity to comment on a draft of this
                       report. Moraine II agreed with the results of our audit; its response
                       can be found in appendix 1. After incorporating Moraine II’s
                       response into this report, we provided it to Treasury management
                       for comment. Treasury management also concurred with our audit
                       results; its response is provided in appendix 2.


Background
                       Eligibility Under the 1603 Program

                       Applicants are eligible for a 1603 Program award if a specified
                       energy property is placed in service during calendar years 2009,
                       2010, or 2011,4 and the amount awarded is in accordance with
                       provisions of the Internal Revenue Code for determining the
                       appropriate cost basis. Under the 1603 Program, applicants submit
                       an application to Treasury that reports the total eligible cost basis
                       of a specified energy property placed in service. If approved, award

3
  Office of the Fiscal Assistant Secretary, “Payments for Specified Energy Property in Lieu of Tax
Credits under the American Recovery and Reinvestment Act of 2009 Program Guidance”, (July 2009/
Revised March 2010/ Revised April 2011)
(http://www.treasury.gov/initiatives/recovery/Pages/1603.aspx)
4
  Section 707 of the Tax Relief, Unemployment Insurance Reauthorization and Job Creation Act of
2010 (Pub. L. 111-312, 124 Stat. 3312 (December 17, 2010)), extended Treasury’s 1603 Program for
1 year. To be eligible, a property must be placed in service in 2009, 2010, or 2011 or placed in service
after 2011 but only if construction of the property began during 2009, 2010 or 2011 and the credit
termination date of the property has not expired. The application deadline was extended to
September 30, 2012.


                       Audit of Moraine Wind II LLC Payment Under 1603 Program                    Page 2
                       (OIG-12-069)
                        amounts are based on a percent of the eligible cost basis. For the
                        type of property claimed by Moraine II, the percentage of the cost
                        basis eligible for award is 30 percent. According to Treasury’s
                        1603 Program guidance, the cost basis of the subject property is
                        ascertained in accordance with the general rules for determining
                        the cost basis of property for federal income tax purposes.
                        Specifically, for this type of property, applicants follow the
                        capitalization procedures found in Treas. Reg. §1.263A-1,
                        “Uniform Capitalization of Costs.”5

                        The terms and conditions of award require applicants to certify
                        annually for a period of 5 years following the property’s in-service
                        date that the claimed property (1) has not been sold, transferred, or
                        disposed of to a disqualified person and (2) continues to qualify as
                        a specified energy property. Otherwise, the 1603 Program payment
                        will be subject to full or prorated recapture.

                        Moraine II

                        Iberdrola developed the Moraine Wind II wind farm property located
                        in Pipestone County, Minnesota. The subject property is a 49.5
                        megawatt (MW) wind farm which utilizes 33 General Electric wind
                        turbines capable of generating about 169 gigawatt hours of
                        electrical output annually. Moraine II’s generated power is sold to a
                        local utility provider.

                        As of the end of our fieldwork, Iberdrola affiliates received $1.6
                        billion in 1603 Program awards for 22 specified energy properties –
                        Penascal Wind Power, Farmers City Wind, Barton Chapel Wind,
                        Locust Ridge II, Hay Canyon Wind, Pebble Springs Wind, Barton
                        Windpower, Dry Lake Wind Power, Rugby Wind, Star Point Wind,
                        Streator-Cayuga Ridge Wind Power, Penascal II Wind, Big Horn II
                        Wind, Dry Lake Wind Power, Buffalo Ridge II, Elm Creek Wind II,
                        Leaning Juniper Wind Power II, Juniper Canyon Wind Power,
                        Hardscrabble Wind Power, Copper Crossing Solar, South Chestnut,
                        and Moraine Wind II.

5
 Treas. Reg. § 1.263A-1(a)(3) (ii), Property produced: “Taxpayers that produce real property and
tangible personal property (producers) must capitalize all the direct costs of producing the property and
the property's properly allocable share of indirect costs (described in paragraphs (e)(2)(i) and (3) of this
section), regardless of whether the property is sold or used in the taxpayer's trade or business.


                        Audit of Moraine Wind II LLC Payment Under 1603 Program                        Page 3
                        (OIG-12-069)
Objectives, Scope, and Methodology
                      To assess the eligibility and accuracy of the award made to
                      Moraine II under the 1603 Program, we determined whether (1) the
                      property existed, (2) the property was placed into service during
                      the eligible timeframe, and (3) the award amount was appropriate.

                      In performing our work, we visited Moraine II’s parent company,
                      Iberdrola in Portland, Oregon; interviewed key personnel of
                      Iberdrola and key personnel associated with its independent public
                      accounting firm; reviewed the application and related documents
                      reviewed by the Department of Energy’s National Renewable
                      Energy Laboratory (NREL);6 reviewed documentation used to
                      support the property’s existence, its placed in service date, and the
                      costs claimed by Moraine II; and reviewed the annual performance
                      reports submitted by the awardee for 2010, 2011 and 2012. We
                      performed our work between February 2010 and May 2012.

                      We conducted this performance audit in accordance with generally
                      accepted government auditing standards. Those standards require
                      that we plan and perform an audit to obtain sufficient, appropriate
                      evidence to provide a reasonable basis for our findings and
                      conclusions based on our audit objectives. We believe that the
                      evidence obtained provides a reasonable basis for our findings and
                      conclusions based on our audit objectives.


Audit Results
                      We verified that the subject property described by Moraine II in its
                      1603 Program application existed, was properly placed in-service
                      within the eligible timeframe, and the award amount was
                      appropriate.




6
 NREL is a national laboratory of the Department of Energy. Under an interagency agreement between
Treasury and the Department of Energy, NREL performs the technical review of 1603 Program
applications and advises Treasury on award decisions.


                      Audit of Moraine Wind II LLC Payment Under 1603 Program                Page 4
                      (OIG-12-069)
   Property Existence

   We confirmed the subject property’s existence through our
   review of Moraine II’s wind turbine monitoring system located
   at Iberdrola headquarters in Portland, Oregon. We noted active
   monitoring of 33 wind turbines. We also found that the subject
   property included the wind turbines that had the 1.5 MW
   capacity each as described in the subject property’s application.

   Placed In-Service

   We determined that the subject property was placed in service
   during the eligible time frame through review of documentation
   supporting Moraine II’s in-service date of February 15, 2009.
   Specifically, we reviewed (1) documentation detailing the
   completion status for each turbine, and (2) the inter-connection
   agreement between Moraine II and respective third parties for
   interconnection service.

   Appropriate Award Amount

   We concluded that the award amount of $28,019,520 awarded
   to Moraine II was appropriate through our review of
   documentation supporting the subject property’s cost basis.
   During our review, we obtained a schedule of all costs in the
   subject property’s cost basis of $93 million and tested
   supporting documentation for cost transactions totaling $65.8
   million and verified that the selected costs were allowable and
   eligible. Accordingly, we believe the amount awarded to
   Moraine II was appropriate.

Since our visit to Iberdrola headquarters, we also reviewed
Moraine II’s “Annual Performance Report and Certification” for
2010, 2011 and 2012 to ensure compliance with Treasury’s
reporting requirements contained in the applicant’s terms and
conditions of award. As required for continued eligibility, Moraine II
certified that the property had not been sold, transferred, or
disposed of to a disqualified person and that the property continues
to qualify as a specified energy property. The next annual report is
due March 7, 2013.



Audit of Moraine Wind II LLC Payment Under 1603 Program         Page 5
(OIG-12-069)
                                ******




We appreciate the courtesies and cooperation provided to our staff
during this audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Donna Joseph, Director, at
(202) 927-5784. See appendix 3 for major contributors to this
report.


/s/

Marla A. Freedman
Assistant Inspector General for Audit




Audit of Moraine Wind II LLC Payment Under 1603 Program      Page 6
(OIG-12-069)
Appendix 1
Moraine Wind II, LLC’s Response




Audit of Moraine Wind II LLC Payment Under 1603 Program   Page 7
(OIG-12-069)
Appendix 2
Management’s Response




Audit of Moraine Wind II LLC Payment Under 1603 Program   Page 8
(OIG-12-069)
Appendix 3
Major Contributors To This Report




Donna Joseph, Director
Cynthia Milanez, Audit Manager
Erica Wardley, Audit Manager
James Hodge, Auditor-in-Charge
Cheryl Sroufe, Auditor
Alexander Milne, Auditor
Christen Stevenson, Referencer




Audit of Moraine Wind II LLC Payment Under 1603 Program   Page 9
(OIG-12-069)
Appendix 4
Report Distribution




Department of the Treasury

   Acting Assistant Secretary for Management of the Treasury,
      Chief Financial Officer, and Chief Performance Officer
   Fiscal Assistant Secretary
   Deputy Chief Financial Officer
   Director, Treasury-wide Accounting and Policy
   Director, Risk and Control Group
   Deputy Director, Office of Performance Budgeting
   Program Manager, Office of the Fiscal Assistant Secretary

Office of Management and Budget

   OIG Budget Examiner

Iberdrola Renewables Inc.

   President and Chief Executive Officer




Audit of Moraine Wind II LLC Payment Under 1603 Program    Page 10
(OIG-12-069)
THIS PAGE INTENTIONALLY LEFT BLANK
